(g,
S'l'RViC£S

                      DEPARTMENT OF
                                 OF HEALTH
                                    HEALTH &
                                           & HUMAN
                                             HUMAN SERVICES
                                                   SERVICES                                                        Office
                                                                                                                   Office of
                                                                                                                          of Inspector
                                                                                                                              Inspector General
                                                                                                                                        General



,,4                                                                                                                Washington, D.C. 20201

                                                                                                                   Washington,      20201




                                                       'AUG
                                                        AUG i199 2009

                                                                  2009

              TO:
             -TO:               Maiso Bryant
                                Acting Commissioner
                                Administration on
                                               on Children,
                                                   Children, Youth
                                                             Youth and Families
                                Administration for Children
                                                   Children and
                                                             and Families
                                                                 Families


             FROM:               osep&~
                                 osepfi~
                                Deputy Inspector General for
                                                         for Audit Services
                                                                   Services


             SUBJECT:           Review of the
                                Review of  theMissouri
                                                Missouri
                                                       DeparmentDepartment
                                                                 of        of Social
                                                                              Social     Services
                                                                                     Services Claim for Claim
                                                                                                        Title   for Title IV-E
                                Training Costs for the Social Services Cost Pool      Pool forfor July
                                                                                                    July 1,1,2002,
                                                                                                              2002, Through
                                June 30, 2006 (A-07-08-03114)
                                June            (A-07-08-031 14)


             Attached is an advance copy of  of our final report on the Missouri Department
                                                                                  Department of  of Social
                                                                                                    Social Services
                                                                                                              Services
             (the State  agency) claim  for Title IV-E  training costs for the Social Services   Cost Pool
             (the State agency) claim for Title IV-E training costs for the Social Services Cost Pool (cost    (cost
             pool) for
                   for the
                        the period
                            period July
                                   July 1,2002,
                                         1,2002, through June
                                                           June 30,
                                                                 30, 2006.
                                                                     2006. We wil
                                                                                willissue
                                                                                     issuethis
                                                                                           this report
                                                                                                 report to
                                                                                                         to the
                                                                                                             the State
                                                                                                                 State
             agency within 5 business days.

             Federal regulations specify that training expenditures must be included in the approved State
             training plan to     to be claimed at the enhanced 75-percent Federal       Federal financial
                                                                                                  financial participation (FFP) rate.
                                                                                                            paricipation (FFP)   rate.
             Also, pursuant to Federal regulations, States must allocate costs to the Title iv                  IV-E
                                                                                                                   -E program in
             accordance
             accordance with   with an an approved
                                           approved public public cost allocation
                                                                          allòcation plan.      specified in its approved cost
                                                                                      plan. As specified
             allocation plan, the State agency used a random moment timestudy to allocate costs from the cost
             poolto Title
             pool   to Title     IV-E The
                          IV-E training. training.      The cost
                                            cost pool consisted of 
 pool consisted of the State agency's
                                                                                                    agency's proportionate
                                                                                                              proportionate share
                                                                                                                             share of
                                                                                                                                   of
             county overhead and        and indirect expenses.
                                                           expenses. The The State
                                                                              State agency claimed $10,224,397 ($7,668,298
                                                                                                                     ($7,668,298
             Federal share) in Title iv        IV-E- E training
                                                         training costs
                                                                     costs that
                                                                           that it had allocated from the cost pool and claimed at
             the enhanced 75-percent FFP           FFP raterate from
                                                                  from July
                                                                        July 1,2002,   through June
                                                                             1,2002, through    June 30,
                                                                                                      30, 2006.
                                                                                                          2006.

             Our objective was toto determine whether the Title IV-E training costs that the State agency
             allocated
             allocated from
                       from the
                             the cost pool
                                      pool and claimed at the
                                                          the enhanced
                                                              enhanced 75-percent
                                                                        75-percent FFP
                                                                                    FFP rate
                                                                                         rate from
                                                                                              from July
                                                                                                    July 1,2002,
             through June
                      June 30, 2006,  were
                           30, 2006, were  allowable under  Federal regulations, the approved   State training
                                                                                                State training
             plan, and the approved cost allocation plan.

             None
             None of 
 of the $10,224,397 ($7,668,298 Federal share) in Title IV-E training costs that the State

             agency
             agency allocated
                         allocated from  from the cost pool from July 1,            1,2002,
                                                                                       2002, through June 30, 2006, was allowable for
             Federal      reimbursement
             Federal reimbursement at the enhanced at         FFP rate. Of 
 75-percent FFP rate. Of the $7,668,298 Federal share,
                                                       the enhanced
                                                   75-percent

             $2,556,099
             $2,556,099 was not was    not   allowable        because      the cost pool did not consist entirely of
                                                                                                                   of allowable training
             costs
             costs reimbursable
                      reimbursable at       at the
                                                the enhanced
                                                      enhanced rate.  rate. InIn addition,
                                                                                 addition, contrary
                                                                                           contrary to regulation, none of
                                                                                                                         of the costs
Page 2 – Maiso Bryant


comprising the cost pool were included in the State’s approved training plan. The $2,556,099 in
unallowable costs represents the difference between the amount claimed at the enhanced 75-
percent FFP rate and the amount that could have been claimed at the administrative 50-percent
FFP rate.

Of the remaining $5,112,199 Federal share, representing the amount that could have been
claimed at the administrative 50-percent FFP rate, $3,301,490 may not have been allowable
because the State agency may not have complied with the provisions of its approved cost
allocation plan when it used a nonautomated timestudy to allocate costs from the cost pool to
Title IV-E training. We are setting aside the $3,301,490 for adjudication by the Administration
for Children and Families (ACF). We are accepting the remaining $1,810,709, which the State
agency allocated using an automated timestudy that complied with the approved cost allocation
plan.

We recommend that the State agency:

   •     adjust its next “Title IV-E Foster Care and Adoption Assistance Financial Report” to
         reduce Federal reimbursement claimed for Title IV-E training by $2,556,099 and

   •     work with ACF to determine what portion of the $3,301,490 Federal share was not
         allocable to Title IV-E and make financial adjustments as necessary.

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. After reviewing the State agency’s comments, we maintain that our findings
and recommendations are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov or Patrick J. Cogley, Regional Inspector General for Audit Services,
Region VII, at (816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to
report number A-07-08-03114.


Attachment
/"'~
                                                                                                         OtTce
                                                                                                         Ol1iceofofInspector
                                                                                                                    InspectorGcnerdl
                                                                                                                             Gcnerdl
                        DEPARTMENT OF REALTH & HUMAN SERVICES
                                                     SERVICES                                            Offce
                                                                                                         OfficeofofAudit
                                                                                                                    AuditServices
                                                                                                                          Services

~ Jít
t~?
/..",p""'VIf-C.ÀIS"J;   DEPARTMENT OF HEALTH & HUMA



'ó...."'~::
                                                                                                          Region VII

                                                                                                         Region   VII
                                                                                                         601
                                                                                                         601 Eat 12lhStrect
                                                                                                             Easl12'"Strect
                                                                                                         Room
                                                                                                          Room 0429
                                                                                                                0429
                                                          AUG 224
                                                          AUG      2009
                                                                4 2009                                   Kansas
                                                                                                         KansasCity,
                                                                                                                 City.Missouri
                                                                                                                      Missouri64 106
                                                                                                                               64106


               Report Number:
               Report         A-07-08-03114
                      Number: A-07-08-03114

                    Ronald J.
               Mr. Ronald  J. Levy
                              Levy
               Director
               Director
                         Depa11ment of
               Missouri Department  of Social
                                        Social Services
                                               Services
               P,O, Box  1527
               P.O. Box 1527
               Jefferson City, Missouri  65102-1527
                               Missouri 65102-1527

               Dear Mr.
               Dear Mr, Levy:

                        Levy:

               Enclosed is the U.S,    U.S. Department of Health and     and Human
                                                                              Human Services
                                                                                       Services (HHS),
                                                                                                (HHS), Office
                                                                                                         Office of  Inspector
                                                                                                                ofInspector
               General (OIG), final report entitled "Review of             of the
                                                                              the Missouri Department
                                                                                            Department of of Social
                                                                                                             Social Services
                                                                                                                     Services
               Claim for Title IV-E    iv -E   Training   Costs  for the  Social  Services Cost  Pool for July 1,2002,   Through
                                                                                  Services Cost Pool for July 1,2002, Through
               June
               June 30, 30,  2006."
                        2006."           We awill
                               We will forward        forward
                                                copy of 
     a copy of this report to the
                                                                                        the HHS
                                                                                            HHS action
                                                                                                  action official
                                                                                                          offcial noted
                                                                                                                  noted on
                                                                                                                         on the
                                                                                                                            the
               following page for review and any           any action deemed
                                                                       deemed necessary.
                                                                                 necessary.

               The HHS
                   HHS action official   will make
                                 offcial will makefinal
                                                    final determination
                                                           determination as
                                                                         as to
                                                                             to actions
                                                                                actions taken
                                                                                         taken on
                                                                                                on all
                                                                                                    all matters
                                                                                                        matters reported.
                                                                                                                 reported.
               We request
                   request that
                           that you
                                you respond
                                     respond to this official
                                                     official within
                                                              within 30
                                                                     30 days
                                                                        days from
                                                                               from the
                                                                                     the date
                                                                                          date of
                                                                                               of this
                                                                                                  this letter.  Your
                                                                                                        letter. Your
               response should present any comments or additional information that you believe may have a
               bearing on the final
                              final determination.

               Pursuant
               Pursuant to  the Freedom of Information Act, 5 U.S.C.
                         to the                                  U.S.c. § 552, OIG reports generally are made
               available to
                         to the
                            the public to the extent that information in the report is not subject to exemptions in
               the
               the Act. Accordingly, this
                   Act. Accordingly,   this report
                                            report will
                                                   will be
                                                        be posted
                                                           posted on
                                                                  on the
                                                                     the Internet
                                                                         Internet at
                                                                                  at http://oig.hhs.gov.
                                                                                     http://oig.hhs.gov,

               If you
                   you have
                        have any
                             any questions or comments about this report, please do not hesitate to call me at
               (8)
               (816) 426-3591, or
                    6) 426-3591,     or contact
                                        contact Greg
                                                Greg Tarnbke,
                                                     Tambke, Audit  Manager, at
                                                              Audit Manager,    at (573)
                                                                                   (573) 893-8338,  extension 30,
                                                                                          893-8338, extension 30, or
                                                                                                                  or
               through email
               through    email atat Greg.Tambke@oig.hhs.gov.
                                     Greg.Tambke(ioig.hhs.gov. Please
                                                                 Please refer
                                                                         refer to
                                                                                to report
                                                                                    report number
                                                                                           number A-07-08-03114
                                                                                                  A-07-08-03114 in
               all
               all correspondence.



                                                                   rp~
                                                                  ~~
                                                                    Sincerely,
                                                                    Sincerely,



                                                                   Patrick J.
                                                                   Patrick
                                                                   Regional
                                                                           J. Cogley
                                                                   Regional Inspector
                                                                              Inspector General
                                                                                        General
                                                                     for Audit
                                                                    for  Audit Services
                                                                                Services


               Enclosure
               Enclosure
Page 2 - Mr. Ronald 1. Levy


Direct Reply to HHS Action Official:

Ms. Nancy Long 

Acting Regional Administrator, Region VII 

Administration for Children and Families 

601 East 12th Street, Room 276 

Kansas City, Missouri 64106-2808 

Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF THE MISSOURI
    DEPARTMENT OF SOCIAL
   SERVICES CLAIM FOR TITLE
 IV-E TRAINING COSTS FOR THE
  SOCIAL SERVICES COST POOL
  FOR JULY 1, 2002, THROUGH
         JUNE 30, 2006




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-07-08-03114
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act, as amended, authorizes Federal funds for States to provide
foster care and adoption assistance to children under an approved State plan. At the Federal
level, the Administration for Children and Families (ACF) administers the program; in Missouri,
the Department of Social Services (the State agency) administers the program. Title IV-E
provides Federal financial participation (FFP) at a 50-percent rate for administrative
expenditures and at an enhanced 75-percent rate for certain training expenditures.

Federal regulations specify that training expenditures must be included in the approved State
training plan to be claimed at the enhanced 75-percent FFP rate. Also, pursuant to Federal
regulations, States must allocate costs to the Title IV-E program in accordance with an approved
public cost allocation plan. As specified in its cost allocation plan, the State agency used a
random moment timestudy to allocate costs from the Social Services Cost Pool (cost pool) to
Title IV-E training. The cost pool consisted of the State agency’s proportionate share of county
overhead and indirect expenses.

The State agency claimed $10,224,397 ($7,668,298 Federal share) in Title IV-E training costs
that it had allocated from the cost pool and claimed at the enhanced 75-percent FFP rate from
July 1, 2002, through June 30, 2006.

OBJECTIVE

Our objective was to determine whether the Title IV-E training costs that the State agency
allocated from the cost pool and claimed at the enhanced 75-percent FFP rate from July 1, 2002,
through June 30, 2006, were allowable under Federal regulations, the approved State training
plan, and the approved cost allocation plan.

SUMMARY OF FINDINGS

None of the $10,224,397 ($7,668,298 Federal share) in Title IV-E training costs that the State
agency allocated from the cost pool from July 1, 2002, through June 30, 2006, was allowable for
Federal reimbursement at the enhanced 75-percent FFP rate. Of the $7,668,298 Federal share,
$2,556,099 was not allowable because the cost pool did not consist entirely of allowable training
costs reimbursable at the enhanced rate. In addition, contrary to regulation, none of the costs
comprising the cost pool were included in the State’s approved training plan. The $2,556,099 in
unallowable costs represents the difference between the amount claimed at the enhanced 75-
percent FFP rate and the amount that could have been claimed at the administrative 50-percent
FFP rate.

Of the remaining $5,112,199 Federal share, representing the amount that could have been
claimed at the administrative 50-percent FFP rate, $3,301,490 may not have been allowable
because the State agency may not have complied with the provisions of its approved cost
allocation plan when it used a nonautomated timestudy to allocate costs from the cost pool to



                                                i
Title IV-E training. We are setting aside the $3,301,490 for adjudication by ACF. We are
accepting the remaining $1,810,709, which the State agency allocated using an automated
timestudy that complied with the approved cost allocation plan.

RECOMMENDATIONS

We recommend that the State agency:

   •     adjust its next “Title IV-E Foster Care and Adoption Assistance Financial Report” to
         reduce Federal reimbursement claimed for Title IV-E training by $2,556,099 and

   •     work with ACF to determine what portion of the $3,301,490 Federal share was not
         allocable to Title IV-E and make financial adjustments as necessary.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. With respect to the costs that we questioned, the State agency said that most
of the costs in the cost pool were direct costs comprising salaries and benefits of case workers
and others. The State agency also said that its approved cost allocation plan plainly indicated
that Title IV-E training costs would be claimed at the enhanced 75-percent FFP rate. With
respect to the potentially unallowable costs that we reported, the State agency disputed the
conclusions that we drew on the basis of nonresponses to the nonautomated timestudy.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. We also disagree with the State agency’s stated conceptions of the
purpose and scope of the cost allocation plan and the State training plan. Furthermore, the State
agency did not comply with 45 CFR § 1356.60(b)(2), which states: “All training activities and
costs funded under title IV-E shall be included in the State agency’s training plan for title IV-B.”

In response to the State agency’s comments regarding potentially unallowable costs, we maintain
that a timestudy with a 67-percent nonresponse rate for the four largest counties in the State was
not “representative of the work done by all Department Field Staff” as required by the approved
cost allocation plan. Given the high nonresponse rate, we have serious concerns about whether
the sample was statistically valid.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Title IV-E Program ...............................................................................................1
              Federal Reimbursement Requirements .................................................................1
              Missouri Department of Social Services Cost Pool..............................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................3
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          FEDERAL REQUIREMENTS.........................................................................................4
               Federal Requirements and Departmental Appeals Board Decisions ....................4
               Approved Cost Allocation Plan ............................................................................5

          UNALLOWABLE COSTS ..............................................................................................5

          POTENTIALLY UNALLOWABLE COSTS ..................................................................6

          RECOMMENDATIONS..................................................................................................7

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
            RESPONSE.............................……………………………………………………....7
               Costs in the Cost Pool ...........................................................................................7
               State Training Plan and Approved Cost Allocation Plan......................................8
               Nonresponses to Nonautomated Random Moment Timestudy ............................8

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Title IV-E Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care and adoption assistance to children under an approved State plan. At the
Federal level, the Administration for Children and Families (ACF) administers the program; in
Missouri, the Department of Social Services (the State agency) administers the program.

Federal funds are available to States for the following Title IV-E administrative and training
costs:

   •     Administrative costs include staff activities such as case management and supervision
         of children placed in foster care or considered to be Title IV-E candidates, preparation
         for and participation in court hearings, placements of children, recruitment of foster
         parents, and licensing of foster homes and institutions. The Federal funding rate for
         administrative costs allocable to the Title IV-E program is 50 percent.

   •     Training costs include the training of personnel employed or preparing for employment
         by the State or local agency administering the State training plan and the training of
         current or prospective foster care or adoptive parents, as well as personnel of childcare
         institutions. Certain State training costs qualify for an enhanced 75-percent Federal
         funding rate.

Pursuant to Federal regulations (45 CFR part 95, subpart E), States must allocate costs to the
Title IV-E program in accordance with a public assistance cost allocation plan approved by the
Department of Health and Human Services, Division of Cost Allocation (DCA), after ACF
reviews and comments on the fairness of the cost allocation methodologies. Federal regulations
(45 CFR §§ 74.27 and 92.22) also require that costs be allocated according to the accounting
principles and standards in Office of Management and Budget Circular A-87, “Cost Principles
for State, Local, and Indian Tribal Governments.” The circular requires at section C that costs be
allocated to programs based on the relative benefits received and be adequately documented.
ACF’s “Child Welfare Policy Manual” states that training costs must be allocated to benefiting
programs and describes allowable administrative costs.

States submit the “Title IV-E Foster Care and Adoption Assistance Financial Report”
(ACF-IV-E-1 report) on a quarterly basis to claim Federal reimbursement for Title IV-E costs.

Federal Reimbursement Requirements

Section 474(a)(3) of the Act authorizes Federal reimbursement at an enhanced 75-percent rate
for amounts expended “for the proper and efficient administration of the State’s plan” if the
expenditures are for certain types of training, such as the training of personnel employed or
preparing for employment by the State or local agency administering the Title IV-E program.


                                                 1
Federal regulations (45 CFR § 1356.60(b)) restate the training costs for which States receive the
enhanced 75-percent rate of Federal financial participation (FFP) and further provide that
inservice training and short-term and long-term training at educational institutions be provided
pursuant to 45 CFR §§ 235.63−235.66(a). These regulations list with greater specificity certain
activities and costs that are eligible for the enhanced FFP rate. Section 474(a)(3)(E) of the Act
and 45 CFR § 1356.60(c) authorize reimbursement to States at a 50-percent FFP rate for all other
allowable administrative expenditures.

All training activities and costs charged to the Title IV-E program must be included in the State’s
training plan pursuant to 45 CFR § 1356.60(b)(2). 1 The State’s training plan must describe the
training activities and costs that will be charged to the Title IV-E program at the enhanced
75-percent FFP rate.

Missouri Department of Social Services Cost Pool

The State agency used a random moment timestudy to allocate costs from the Social Services
Cost Pool (cost pool) to Title IV-E training. The cost pool consisted of the State agency’s
proportionate share of county overhead and indirect expenses and did not consist entirely of
allowable training costs. These expenses included, among other things, costs associated with
rent and other indirect costs, which were eligible only for the 50-percent administrative FFP rate
pursuant to 45 CFR § 1356.60(c)(2). The cost pool, which totaled $456,536,067 during our audit
period, was derived from the total of all county social services expenditure reports received
quarterly.

Until April 2005, the State agency used a nonautomated timestudy in which a coordinator and an
observer in each local office were responsible for observing employee activities at the
appropriate random moment and for submitting the timestudy results to the State agency. In
April 2005, the State agency automated the timestudy; since then, survey forms have been sent to
employees by email. The automated system, which the State agency put in place before we
began our fieldwork, uses a random moment email notification system in concert with an
observer system for those who do not have regular email and Web access (including employees
of the Division of Youth Service (DYS), a component of the State agency). The automated
timestudy generates statistically valid statewide estimates of the distribution of employees’ time
among various activities that are supported by Federal and State funding sources.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Title IV-E training costs that the State agency
allocated from the cost pool and claimed at the enhanced 75-percent FFP rate from July 1, 2002,
through June 30, 2006, were allowable under Federal regulations, the approved State training
plan, and the approved cost allocation plan.


1
 The State agency submitted a training plan to ACF for approval for each Federal fiscal year included in this review
(2002 through 2006).


                                                         2
Scope

From July 1, 2002, through June 30, 2006, the State agency claimed a total of $30,556,399
($22,917,299 Federal share) in Title IV-E training costs. Our audit covered the $10,224,397
($7,668,298 Federal share) that the State agency had allocated from the cost pool and claimed for
Federal reimbursement at the enhanced 75-percent FFP rate. We are separately reviewing the
remaining Title IV-E training costs (salaries and benefits, long-term training, and foster care
parent training and residential treatment centers’ training) that the State agency claimed for
Title IV-E training during the same period. We will address those costs in three separate reports.

We reviewed internal controls to the extent necessary to accomplish the audit objective.

We performed fieldwork from November 2006 to May 2008 at the State agency in Jefferson
City, Missouri.

Methodology

To accomplish our objective, we:

   •     reviewed applicable Federal laws, regulations, policy directives, State training plans,
         U.S. Department of Health and Human Services Departmental Appeals Board (DAB)
         decisions, and the approved cost allocation plan;

   •     interviewed officials of ACF, DCA, the Missouri State Auditor’s Office, and the State
         agency to gain an understanding of the State agency’s Title IV-E training program and
         its policies and procedures;

   •     reviewed the State agency’s methods for recording and allocating training costs;

   •     reviewed the ACF-IV-E-1 reports and supporting quarterly cost allocation reports and
         compared the amounts claimed with the State agency’s accounting records;

   •     judgmentally selected the costs originating from DYS and traced these costs to the
         amounts included in the cost pool and, ultimately, to the amounts claimed on the ACF-
         IV-E-1 reports through the use of the timestudy;

   •     reviewed the nonautomated and automated timestudy data and compared those data
         with the results that the State agency used to allocate costs from the cost pool to
         Title IV-E; and

   •     judgmentally selected and reviewed the nonautomated timestudy results for the quarter
         ending March 31, 2005, to determine whether the timestudy was conducted in
         accordance with the approved cost allocation plan.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


                                                3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                       FINDINGS AND RECOMMENDATIONS

None of the $10,224,397 ($7,668,298 Federal share) in Title IV-E training costs that the State
agency allocated from the cost pool from July 1, 2002, through June 30, 2006, was allowable for
Federal reimbursement at the enhanced 75-percent FFP rate. Of the $7,668,298 Federal share,
$2,556,099 was not allowable because the cost pool did not consist entirely of allowable training
costs reimbursable at the enhanced rate. In addition, contrary to regulation, none of the costs
comprising the cost pool were included in the State’s approved training plan. The $2,556,099 in
unallowable costs represents the difference between the amount claimed at the enhanced 75-
percent FFP rate and the amount that could have been claimed at the administrative 50-percent
FFP rate.

Of the remaining $5,112,199 Federal share, representing the amount that could have been
claimed at the administrative 50-percent FFP rate, $3,301,490 may not have been allowable
because the State agency may not have complied with the provisions of its approved cost
allocation plan when it used a nonautomated timestudy to allocate costs from the cost pool to
Title IV-E training. We are setting aside the $3,301,490 for adjudication by ACF. We are
accepting the remaining $1,810,709, which the State agency allocated using an automated
timestudy that complied with the approved cost allocation plan.

FEDERAL REQUIREMENTS

Federal Requirements and Departmental Appeals Board Decisions

Section 474(a)(3)(E) of the Act and 45 CFR § 1356.60(c) provide for a 50-percent FFP rate for
reimbursement of administrative expenditures. Pursuant to 45 CFR § 1356.60(c)(2):

   The following are examples of allowable administrative costs necessary for the
   administration of the foster care program:

   (i)      Referral to services;
   (ii)     Preparation for and participation in judicial determinations;
   (iii)    Placement of the child;
   (iv)     Development of the case plan;
   (v)      Case reviews;
   (vi)     Case management and supervision;
   (vii)    Recruitment and licensing of foster homes and institutions;
   (viii)   Rate setting . . .
   (ix)     A proportionate share of related agency overhead[; and]
   (x)      Costs related to data collection and reporting.




                                                 4
In addition, Federal regulations (45 CFR §1356.60(b)(2)) state that “[a]ll training activities and
costs funded under title IV-E shall be included in the State agency’s training plan for title IV-B.”

The DAB has ruled that “. . . indirect costs associated with allowable direct costs of [Title] IV-E
training may not be charged at the 75% rate of FFP applicable to training costs if the indirect
costs are based on rates developed using cost pools containing unallowable training costs.” 2
Quoting language from an earlier decision,3 DAB stated that the enhanced Federal
reimbursement rate:

           “. . . is an exception to the generally available reimbursement rates, and a state
           must accordingly meet a higher standard of proof to justify a claim at an enhanced
           rate.” . . . Otherwise, a state might try to improperly shift costs to programs, or
           parts of programs, with enhanced funding. Here, the regulation limits the types of
           costs which are allowable at the 75% training rate. Thus, in order to claim FFP at
           this rate, Illinois would have to show that its indirect costs consisted entirely of
           allowable costs.

Approved Cost Allocation Plan

The State’s approved cost allocation plan did not address the allocation of allowable training
costs at the enhanced rate. The State claimed at the enhanced rate for training activities an
amount allocated in accordance with section VI-A, Exhibit III, “RMTS [random moment
timestudy] Allocation Principles,” section I, dated October 1, 2001. This provision of the cost
allocation plan describes the methodology for allocating all county overhead costs and states:
“The cost pool against which the RMTS-derived allocation percentages are applied is the total
cost of the counties’ social services programs for children and adults. The cost pool includes that
agency’s proportionate share of county overhead and indirect expense.”

Section VI-A of the cost allocation plan also states that the timestudy “will be based on a sample
that will be representative of the work done by all Department Field Staff” and adds that “[t]he
time period sampled should be as representative as possible of the period to which we [the State
of Missouri] wish to infer.”

UNALLOWABLE COSTS

None of the $10,224,397 ($7,668,298 Federal share) in Title IV-E training costs that the State
agency allocated from the cost pool from July 1, 2002, through June 30, 2006, was allowable for
Federal reimbursement at the enhanced 75-percent FFP rate. Of the $7,668,298 Federal share,
$2,556,099 was unallowable because:

       •   The costs comprising the cost pool were not entirely allowable training costs, as required
           by the DAB, and constituted county overhead and indirect expense costs, which Federal


2
    Illinois Department of Children and Family Services, DAB No. 1530 (1995).
3
    Colorado Department of Social Services, DAB No. 1277 (1991).


                                                         5
        regulations specify may be claimed at the administrative 50-percent FFP rate but not at
        the enhanced 75-percent FFP rate.

    •   The State agency did not include the costs comprising the cost pool in the approved State
        training plan as required by Federal regulations.

The cost pool was identified as an indirect cost pool by section VI-A of the approved cost
allocation plan, which stated that the cost pool included the State agency’s proportionate share of
county overhead and indirect expense. Our review of DYS costs confirmed that the cost pool
included county overhead and indirect expenses, which were administrative costs pursuant to
45 CFR § 1356.60(c)(2). The cost pool did not consist entirely of allowable training costs and,
pursuant to the DAB’s decisions, could not be used to allocate training costs eligible for the
enhanced 75-percent FFP rate. These expenses included, among other things, costs associated
with rent and other indirect costs, which were eligible only for the 50-percent FFP rate. 4

In addition, contrary to the provisions of 45 CFR § 1356.60(b)(2), the State training plan did not
include the costs comprising the cost pool, thus giving no indication that the State agency would
claim funding for its county overhead costs at the enhanced 75-percent FFP rate. Therefore, the
State agency did not conform to Federal regulations or its training plan when it claimed these
costs at the enhanced 75-percent FFP rate.

Because the State agency did not include the costs comprising the cost pool in its approved State
training plan and because the cost pool included a mixture of costs that would have been
allowable at the enhanced 75-percent FFP rate as well as at the administrative 50-percent FFP
rate, we are questioning the $2,556,099 Federal share. This amount represents the difference
between the amount claimed at the enhanced 75-percent FFP rate and the amount that could have
been claimed at the administrative 50-percent FFP rate.

POTENTIALLY UNALLOWABLE COSTS

Because we have already questioned $2,556,099 of the $7,668,298 Federal share that the State
agency claimed, the remaining $5,112,199 represents the amount that could have been claimed at
the administrative 50-percent FFP rate. We are setting aside $3,301,490 of this amount for
adjudication by ACF. This amount may not have been allowable for Federal reimbursement
because the State agency may not have complied with its approved cost allocation plan when
using a nonautomated timestudy to allocate costs from the cost pool to Title IV-E training.

Prior to April 2005, the State agency used a nonautomated timestudy to allocate overhead costs,
which included Title IV-E training costs. Under this method, a coordinator and an observer in
each local office were responsible for observing employee activities at the appropriate random
moment and for submitting the timestudy results to the State agency. This method may not have
complied with the provisions of the State agency’s approved cost allocation plan, section VI-A,
which mandated that the timestudy be based on a sample that was representative of the work


4
 The indirect costs were based on DCA-approved indirect cost rates, which were derived from the statewide indirect
costs allocated to DYS, the State agency indirect costs allocated to DYS, and the DYS indirect cost pool.


                                                        6
done by all State agency staff. Our review of the nonautomated timestudy responses for the
quarter ending March 31, 2005, found that the statewide nonresponse rate was approximately
40 percent and that the nonresponse rate in the four largest counties was approximately
67 percent. 5 Thus, the timestudy sample for the quarter reviewed may not have been
representative of the work done by all State agency staff.

Because of the high nonresponse rate across the State and the even higher nonresponse rate in the
four largest counties, there was no assurance that the resulting allocations from the cost pool
were reliable. Accordingly, we were unable to determine the appropriate amount of costs that
should have been allocated to Title IV-E training. We are setting aside for adjudication by ACF
the $3,301,490 Federal share of Title IV-E training costs claimed on the basis of the
nonautomated timestudy.

Because the State agency had transitioned to an automated timestudy before we began our
fieldwork, we were not able to determine the specific reasons for the high nonresponse rate.

RECOMMENDATIONS

We recommend that the State agency:

       •      adjust its next ACF-IV-E-1 report to reduce Federal reimbursement claimed for
              Title IV-E training by $2,556,099 and

       •      work with ACF to determine what portion of the $3,301,490 Federal share was not
              allocable to Title IV-E and make financial adjustments as necessary.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. A summary of the State agency’s pertinent comments and our response
follows. The State agency’s comments are included in their entirety as the Appendix.

The State agency did not address the Federal regulatory requirements or the DAB decision on
which we based our findings.

Costs in the Cost Pool

State Agency Comments

The State agency said that our report conveyed a “factual error” as to the composition of the
costs in the cost pool. According to the State agency, “most of the costs in the cost pool were
direct costs comprised of salary and benefits of case workers and others; relatively small portions
of the cost pool contained direct and billed operating expenses of Children’s Services offices;
and only a small portion consisted of indirect costs.”
5
    The approved cost allocation plan does not provide guidance for handling nonresponses.


                                                           7
Office of Inspector General Response

Our audit confirmed that the cost pool contained such expenses as costs associated with rent and
other indirect costs, which were eligible only for the 50-percent administrative FFP rate pursuant
to 45 CFR § 1356.60(c)(2). Indirect costs that do not consist entirely of allowable training costs
are not eligible for reimbursement at the enhanced 75-percent FFP rate. The State agency has
not provided evidence that our findings are incorrect.

Furthermore, the approved cost allocation plan indicated that direct salary and benefits were to
be “excluded from the cost pool – but separately maintained . . . Such direct charges . . . should
not be included in the cost pool . . . .” Therefore, the State agency’s statement as to the
composition of the cost pool disagrees with the description of the cost pool in the approved cost
allocation plan.

State Training Plan and Approved Cost Allocation Plan

State Agency Comments

The State agency said that the State training plan “is a programmatic plan used to describe the
activities and scope of training, not to enumerate in detail the claiming methodology for costs of
training—an objective served by the CAP [approved cost allocation plan].” The State agency
also said that the approved cost allocation plan “plainly indicates that the costs would be claimed
as Title IV-E training, meaning that they would be claimed at the enhanced rate of FFP that the
statute provides for such costs. . . . [B]oth DCA and ACF knew about and approved Missouri’s
75% claiming rate. . . .” (Emphasis in original.)

Office of Inspector General Response

The approved cost allocation plan is not the means by which the State agency should have
identified those costs that it intended to claim for enhanced FFP. Federal regulations (45 CFR
§ 1356.60(b)(2)) specify: “All training activities and costs funded under title IV-E shall be
included in the State agency’s training plan for title IV-B.” Contrary to these regulations, the
State training plan did not include the costs comprising the cost pool and thus gave no indication
that the State agency intended to claim funding for its cost pool costs at the enhanced 75-percent
FFP rate.

Nonresponses to Nonautomated Random Moment Timestudy

State Agency Comments

The State agency disagreed with our finding and recommendation related to the $3,301,490 that
may not have been allowable. The State agency said that its approved cost allocation plan,
which included the use of a timestudy, did not require any particular response rate. The State
agency also said that its approved cost allocation plan referred not to response rates but rather to
“the simple goal of conducting sampling during ‘the entire period’ at issue.” In addition, the




                                                  8
State agency questioned the accuracy of the nonresponse rates that we reported because of errors,
including transposed numbers, in our calculations.

Office of Inspector General Response

Although we acknowledge that the approved cost allocation plan did not include specific
requirements related to timestudy nonresponses, the plan required that the timestudy be
statistically valid. Given the high nonresponse rates that we found, we have serious concerns
about whether the sample was statistically valid.

After reviewing the State agency’s comments, we corrected a transposition error and reduced the
nonresponse rate for the four largest counties from the 74 percent reported in our draft report to
67 percent. A nonresponse rate as high as 67 percent indicates that the timestudy may not have
complied with the requirement in the approved cost allocation plan that the timestudy “be based
on a sample that will be representative of the work done by all Department Field Staff.”

In light of these concerns, the $3,301,490 in costs claimed on the basis of the timestudy may not
have been allowable for Federal reimbursement.




                                                9
APPENDIX
APPENDIX
 Page 1 of 6
APPENDIX
 Page 2 of 6
APPENDIX
 Page 3 of 6
APPENDIX
 Page 4 of 6
APPENDIX
 Page 5 of 6
APPENDIX
 Page 6 of 6
